TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Annual Assessment of the
                   Business Systems Modernization Program



                                           August 2005

                              Reference Number: 2005-20-102




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Luis.Garcia@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 10, 2005


 MEMORANDUM FOR CHIEF INFORMATION OFFICER



 FROM:                        Pamela J. Gardiner
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Annual Assessment of the Business Systems
                              Modernization Program (Audit # 200520011)

 This report presents our annual assessment of the Business Systems Modernization (BSM)
 program. The overall objective of this review was to assess the progress of the BSM program for
 Fiscal Year (FY) 2005 as required by the Internal Revenue Service (IRS) Restructuring and
 Reform Act of 1998.1

 Synopsis
 The BSM program is a complex effort to modernize the IRS’ technology and related business
 processes. According to IRS estimates, this effort involves integrating thousands of hardware
 and software components over 15 years, with PRIME contractor2 costs of over $8 billion. The
 program is in its seventh year and has allocated approximately $1.9 billion for contractor and
 integrator activities. Additionally, the IRS has provided $213 million in funding to the Business
 Systems Modernization Office (BSMO) since FY 1999.3
 The IRS and its contractors have deployed projects that provide value to taxpayers and have built
 the infrastructure needed to support these projects. In addition, the IRS has developed an
 Enterprise Architecture that includes all IRS business units, processes, programs, and operations

 1
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 2
   The PRIME contractor heads an alliance of leading technology companies brought together to assist with the IRS’
 efforts to modernize its computer systems and related information technology.
 3
   The BSMO stated approximately 25 percent of its noncontractor budget since FY 2001 was used to support
 non-BSM program activities in the IRS.
                                          Annual Assessment of the
                                   Business Systems Modernization Program



and provides details to help guide current and future modernization initiatives. New releases4 of
BSM projects that have delivered value to taxpayers in the past year include the Modernized
e-File (MeF),5 the Customer Account Data Engine (CADE),6 and the e-Services.7 In addition,
new capabilities for the IRS’ internal use were provided in the Integrated Financial System
(IFS).8 The BSM program has also taken steps to improve its management processes. For
example, the Release Management Office and the Requirements Management Office are
developing guidelines and processes to fulfill modernization program management needs.
Since its inception, the BSM program has experienced management problems at both the
program and project levels, as well as problems between the IRS and the PRIME contractor. In
recognition of this condition, key IRS executives and stakeholders developed the BSM
Challenges Plan. The Associate Chief Information Officer (ACIO), BSM, reviewed the
Challenges Plan, as well as various reports prepared by the Treasury Inspector General for Tax
Administration (TIGTA) and the Government Accountability Office. As a result, the ACIO,
BSM, determined what the IRS believed to be the key barriers to success in the BSM program
and created a plan to address these barriers.
In the past year, we reported weaknesses continue to exist in critical program management and
system development processes. These processes involve requirements management, contract
management, software testing, and security controls. BSM project accomplishments did not
include all intended capabilities, were not delivered on schedule, and exceeded proposed costs.
Since the start of the modernization effort, the BSM program has experienced cost overruns and
schedule delays in its project development and deployment. In early 2005, the IRS reported
project deliveries were within budget and schedule estimates for projects delivered since
August 2004. This assessment was based on cost and schedule estimates in the IRS’ May 2004
BSM Expenditure Plan.
Our comparison of project cost estimates and schedules for ongoing project releases in the IRS’
May 2004 and February 2005 BSM Expenditure Plans showed increases in costs for 4 project
releases totaling $28,300,000 (48 percent increase for these releases) and delays in scheduled
completion dates ranging up to 14 months. The $28,300,000 increase represents a cost increase
of 20 percent for all ongoing project releases. The IRS funded these project cost increases
through expenditure plan additions and funding previously obtained through project risk


4
  A release is a specific edition of software.
5
  The MeF project is developing the modernized, web-based platform for electronically filing approximately
330 IRS forms.
6
  The CADE project is the foundation for managing taxpayer accounts in the IRS modernization plan.
7
  The e-Services allows third parties to interact with the IRS via the Internet.
8
  The IFS project includes the accounts payable, accounts receivable, general ledger, budget execution, cost
management, and financial reporting activities.
                                                                                                               Page 2
                                          Annual Assessment of the
                                   Business Systems Modernization Program



adjustments.9 IRS management advised these changes were caused by factors outside their
control, such as additional requirements and Congressional delays in passing legislation.
In September 2004, when we reported10 concerns about the assignment of modernization
program integrator responsibilities, the Chief Information Officer (CIO) responded that some of
the responsibility for the implementation would move to the recently created position of ACIO,
Enterprise Services. In January 2005, the IRS began taking over the role of systems integrator
from the PRIME contractor due to reductions in funding by the Congress for the BSM program
and concerns about the PRIME contractor’s performance. The IRS is in the process of assuming
some of these responsibilities.
The assumption of the integrator role by the IRS is recognized in the BSM program as a high
priority and is included in its list of Highest Priority issues for March 1, 2005, to
September 1, 2005. Many of these issues revolve around program management transition from
the PRIME contractor to the IRS. BSM officials have focused these issues into the key areas of
staffing and skill sets, contractor management, requirements and demand management, and
project management disciplines.
Over the past 3 fiscal years, our annual BSM program assessments have cited 4 primary
challenges the IRS and its contractors must meet to achieve program success: 1) implement
planned improvements in key management processes and commit necessary resources to enable
success, 2) manage the increasing complexity and risks of the BSM program, 3) maintain the
continuity of strategic direction with experienced leadership, and 4) ensure contractor
performance and accountability are effectively managed.
Although the IRS has taken a number of actions in response to our recommendations, recent
TIGTA findings show these four challenges still exist. Therefore, we remain cautious about
looking forward based on FY 2004 results, due to uncertainties related to BSM roles and
responsibilities and the challenges facing the IRS that could affect future accomplishments.

Response
The CIO stated appreciation for acknowledgement of the BSM program’s ability to meet
short-term goals during the past, the complexity of the BSM program, and the progress made.
The CIO also agreed with our observation that the BSM has a lot of work ahead.



9
  To allow for changes around cost estimates, the IRS has included a “risk adjustment” amount for each project or
activity area.
10
   The Office of Release Management Can Improve Controls for Modernization Program Coordination (Reference
Number 2004-20-157, dated September 2004).
                                                                                                           Page 3
                                     Annual Assessment of the
                              Business Systems Modernization Program



The CIO cited progress in four key areas that align with the primary challenges the IRS and its
contractors must meet to achieve program success outlined in this report.
   1. The 2005 modernization budget reflects a portfolio that more closely aligns the BSM
      workload with the IRS’ and PRIME contractor’s management capacity.
   2. The IRS assigned a business unit leader to each project with responsibility for leading the
      related BSM Governance Committee and sharing accountability for delivering the
      modernization project as stated in his or her annual performance commitments.
   3. The IRS Commissioner meets monthly with the Chief Operating Officer of the Computer
      Sciences Corporation (the PRIME contractor) to reinforce the accountability of the
      contractor to the IRS. By restructuring BSM project contracts with the PRIME
      contractor, the IRS has shifted an appropriate amount of financial risk to the contractor
      and tied costs to performance. These steps have resulted in improved contractor
      performance, as demonstrated in the deliverables in 2004 and the general adherence to
      costs and schedules.
   4. The IRS has made great progress in hiring experienced executives and seasoned
      managers from outside the agency who have expertise in running large-scale information
      technology programs and projects. A little over a year ago the mix of leadership at the
      top of the BSM program consisted of one outside expert and six internal IRS executives.
      Today, that mix is four outside experienced experts and three internal IRS executives.
      This mix is a much better balance of the project management and technology talent and
      tax administration experience needed to successfully run the BSM program.
The CIO is very confident the IRS and the BSMO have the management focus and discipline in
place to ensure they are “doing things right” as opposed to “doing things fast,” such as exiting
milestones prematurely. The ongoing challenge will be balancing the scope and pace of projects
consistent with capacity, ensuring the right people are in place before launching a project, and
setting realistic delivery schedules and cost estimates. Management’s complete response to the
draft report is included as Appendix X.
Copies of this report are also being sent to the IRS managers affected by the report observations.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Information Systems Program), at (202) 622-8510.




                                                                                            Page 4
                                                 Annual Assessment of the
                                          Business Systems Modernization Program




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          The Internal Revenue Service and Its Contractors Are Continuing
          to Make Progress...........................................................................................Page 2
          Although Progress Has Been Made, Modernization Achievements
          Have Not Met All Expectations....................................................................Page 5
          The Internal Revenue Service Is Assuming Modernization Program
          Management Responsibilities From Its PRIME Contractor .........................Page 10
          Because of Continuing Transition in the Modernization Program,
          Previously Reported Challenges Still Exist ..................................................Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Internal Revenue Service Modernization Projects
          and Status ......................................................................................................Page 19
          Appendix V – Business Systems Modernization Funding Timeline ............Page 29
          Appendix VI – Recent Treasury Inspector General for Tax
          Administration Reports and Associated Findings on Business
          Systems Modernization.................................................................................Page 34
          Appendix VII – Enterprise Life Cycle Overview .........................................Page 36
          Appendix VIII – Modernization Project Cost and Schedule
          Estimates and Revisions ...............................................................................Page 41
          Appendix IX – Schedule Delays and Cost Increases....................................Page 44
          Appendix X – Management’s Response to the Draft Report .......................Page 45
                                         Annual Assessment of the
                                  Business Systems Modernization Program




                                            Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration (TIGTA) to annually evaluate the adequacy
and security of the IRS’ information technology. This report provides our assessment of the IRS
Business Systems Modernization (BSM) program for Fiscal Year (FY) 2005.
The BSM program is a complex effort to modernize the IRS’ technology and related business
processes. According to the IRS, this effort will involve integrating thousands of hardware and
software components. All of this must be done while replacing outdated technology and
maintaining the current tax system.
To facilitate the success of its modernization efforts, the IRS hired the Computer Sciences
Corporation as the PRIME contractor2 and integrator for the BSM program and created the
Business Systems Modernization Office (BSMO) to guide and oversee the work of the PRIME
contractor. Additional contractors have been hired to supplement the design and development of
modernization projects.3
The IRS estimates this effort will last up to 15 years and incur PRIME contractor costs of over
$8 billion. The program is in its seventh year and has allocated approximately $1.9 billion in
expenditures for contractor and integrator activities. Additionally, the IRS has provided
$213 million4 in funding to the BSMO since FY 1999.5
This review was performed at the BSMO facilities in the IRS National Headquarters in
Washington, D.C., and New Carrollton, Maryland, and the TIGTA office in
Laguna Niguel, California. The information presented in this report is derived from current and
previous TIGTA and Government Accountability Office (GAO) audits and discussions with the
appropriate BSM officials. Compilation of this information was conducted during the period
January through May 2005. The previous audits and our limited analyses were conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  The PRIME contractor heads an alliance of leading technology companies brought together to assist with the IRS’
efforts to modernize its computer systems and related information technology.
3
  See Appendix IV for a list of BSM projects and descriptions.
4
  The BSMO stated approximately 25 percent of its noncontractor budget since FY 2001 was used to support
non-BSM program activities in the IRS.
5
  See Appendix V for details.

                                                                                                          Page 1
                                          Annual Assessment of the
                                   Business Systems Modernization Program




                                      Results of Review

The Internal Revenue Service and Its Contractors Are Continuing to
Make Progress

The IRS and its contractors have deployed projects that provide value to taxpayers and have built
the infrastructure needed to support these projects. In addition, the IRS has developed an
Enterprise Architecture that includes all IRS business units, processes, programs, and operations
and provides details to help guide current and future modernization initiatives.
New releases6 of BSM projects that have delivered value to taxpayers in the past year include the
Modernized e-File (MeF), the Customer Account Data Engine (CADE), and the e-Services.
    •   MeF – The MeF project is developing the modernized, web-based platform for
        electronically filing approximately 330 IRS forms. The MeF project currently consists of
        several releases.

        o Release 1 developed the infrastructure, application base, and support for 53 forms
          filed by corporations and 6 forms filed by exempt organizations. This release was
          deployed in February 2004.
        o Release 2 added the remaining 44 forms associated with corporations and the public
          disclosure capabilities required by the Tax Exempt and Government Entities
          Division. This release was deployed in August 2004.
        o Release 3.1 incorporated the Return of Private Foundation or Section 4947(a)(1)
          Nonexempt Charitable Trust Treated as a Private Foundation (Form 990-PF) and the
          ability to file extensions for a U.S. Corporation Income Tax Return (Form 1120) and
          a U.S. Income Tax Return for an S Corporation (Form 1120S). This release was
          deployed in January 2005.
    •   CADE – The CADE project is the foundation for managing taxpayer accounts in the IRS
        modernization plan. The CADE will consist of databases and related applications to
        replace the IRS’ existing Master File processing systems.7 In July 2004, the IRS
        delivered CADE Release 1.1, which successfully processed refund and even-balance


6
  A release is a specific edition of software.
7
  Master File processing systems consist of the Master Files that contain taxpayer account and return data for
individuals, businesses, and employer retirement plans. A non-Master File also exists for taxpayer data that cannot
be stored in the other Master Files due to data format and space limitations.

                                                                                                            Page 2
                                            Annual Assessment of the
                                     Business Systems Modernization Program



           Income Tax Returns for Single and Joint Filers With No Dependents (Form 1040EZ)8 for
           single taxpayers with no pending tax issues. The CADE Release 1.2 started processing
           these same types of tax returns in January 2005 and is estimated to process approximately
           1.3 million returns during the 2005 Filing Season.9
      •    e-Services – The e-Services project allows third parties to interact with the IRS via the
           Internet. The first release was deployed in August 2003. An FY 2004 release included
           Disclosure Authorization and Electronic Account Resolution. The Disclosure
           Authorization tool gives eligible tax professionals an online option for submitting Power
           of Attorney and Declaration of Representative (Form 2848) or Taxpayer Information
           Authorization forms. Electronic Account Resolution allows tax professionals to
           electronically correspond with the IRS. During 2003 and 2004, over 61,000 participants
           registered to use e-Services. Also, over 130,000 electronic return originator applications
           were received.
In addition, the IRS and its contractors released new capabilities for the IRS’ internal use in the
Integrated Financial System (IFS).
        • IFS – The IFS was developed to address administrative financial management
           weaknesses in the IRS accounting systems. The first release of the IFS became fully
           operational in January 2005 and included the accounts payable, accounts receivable,
           general ledger, budget execution, cost management, and financial reporting activities.
           A future IFS release was planned to include property, performance, and procurement
           management, but work was suspended on this release in early 2005 due to budget
           constraints.
The BSM program has also taken steps to improve its management processes. The Release
Management Office and Requirements Management Office are developing guidelines and
processes to fulfill modernization program management needs.
      •    Release Management Office – The Release Management Office obtains services from
           the PRIME contractor and other BSM program contractors, coordinates the delivery of
           those services, and resolves problems with and between the contractors and the IRS. The
           Release Management Office includes two subordinate offices.
           o The Release Scheduling Office obtains services from the PRIME contractor’s Release
             Management Office, including the Integrated Master Schedule, which provides a
             schedule for project development and integration of all BSM projects; attends and
             hosts various meetings with the BSMO, IRS, and BSM contractors to assist in
             communicating project status and to facilitate problem resolution; and coordinates



8
    The initial release of the CADE will not process Forms 1040EZ for joint filers.
9
    The period from January through mid-April when most individual income tax returns are filed.

                                                                                                   Page 3
                                          Annual Assessment of the
                                   Business Systems Modernization Program



             project hardware and software requirements and project development services
             between the BSM contractor staff and the IRS.
         o The Integration Test and Deployment Office provides an integrated testing10 and
           deployment program to verify that business and systems requirements will be met by
           the BSM projects.
     •   Requirements Management Office – The Associate Chief Information Officer (ACIO),
         BSM, recognized the significance of continued and recurring requirements development
         and management problems and established a Requirements Management Office in
         March 2005. This Office will work to resolve the requirements development and
         management problems affecting the BSM program. This includes providing oversight for
         all participants involved in modernization requirements development and management
         activities.

The IRS recognized its modernization program problems and identified
challenges to address them

Since its inception, the BSM program has experienced management problems at both the
program and project levels, as well as problems between the IRS and the PRIME contractor.
Due to continuing BSM project cost overages and schedule delays, the IRS and the PRIME
contractor initiated the following four studies in mid-2003 to help identify the root causes of the
problems hindering the BSM effort and to make recommendations on remedying the problems
identified:
     •   CADE Study – The Software Engineering Institute (SEI)11 conducted a study of the
         CADE project.
     •   PRIME Contractor Internal Study – Bain and Company conducted an internal study of
         the PRIME contractor.
     •   IRS Root Cause Study – The BSMO conducted an internal study of the BSM program.
     •   High-Level Assessment of the IRS Office of Procurement Study – Acquisition
         Solutions, Incorporated, conducted a study of the IRS acquisition program.12
Key IRS executives and stakeholders reviewed the results of the 4 studies in October 2003 and
created 46 actions to address the study recommendations. These 46 actions collectively became
known as the BSM Challenges Plan. In December 2003, the IRS Oversight Board issued a


10
   Integration testing ensures all system components (hardware and software) are working correctly and collectively
with other related or dependent systems.
11
   The SEI is a Federally Funded Research and Development Center whose purpose is to help others make measured
improvements in their software engineering capabilities.
12
   While the main focus of the study was not on the BSM program, BSM acquisition weaknesses were addressed.

                                                                                                           Page 4
                                        Annual Assessment of the
                                 Business Systems Modernization Program



special report13 containing 9 recommendations, 2 of which were added to the 46 actions already
identified. The IRS is continuing to address the BSM Challenges Plan.
The ACIO, BSM, reviewed the four studies, as well as various reports prepared by the TIGTA
and GAO. As a result, the ACIO, BSM, determined what the IRS believed to be the key barriers
to success in the BSM program and created a plan to address these barriers. This plan initially
included 7 high-level key focus areas and 16 detailed high-priority issues that are updated
periodically to deal with the root causes that are creating the barriers.


Although Progress Has Been Made, Modernization Achievements
Have Not Met All Expectations

While the IRS and the PRIME contractor have made progress in the BSM efforts, the
achievements have not met all expectations. The unmet expectations included efforts to improve
overall program management activities and delivering project capabilities within planned cost
and schedule budgets.14 The IRS is addressing and monitoring corrective actions to address our
findings.

The BSM did not implement and measure BSM program management
improvement efforts

The BSMO recognized the need to improve program management activities, as discussed above.
However, the activities did not include actions to ensure the program development activities
were adequately planned and implemented.
BSM Challenges Plan – The BSM Challenges Plan identified program actions needed to
improve management of the modernization program. However, recommendations were not fully
addressed by the BSM Challenges Plan; a measurement plan was not created to determine if the
actions taken resulted, or will result, in actual improvements in the BSM program; and many
BSM Challenges Plan actions were closed before all significant activities were completed. For
example, a BSM Challenges Plan action item was created to ensure projects strictly follow the
Enterprise Life Cycle (ELC)15 and appropriate alternatives within the ELC are selected. While
we identified actions taken to ensure appropriate alternatives within the ELC are selected, we
could not identify any actions to ensure projects strictly follow the ELC. Since issuance of our



13
   Independent Analysis of IRS Business Systems Modernization (dated December 2003).
14
   Appendix VI presents a list of the TIGTA report findings on the BSM program.
15
   See Appendix VII for an overview of the ELC.

                                                                                         Page 5
                                        Annual Assessment of the
                                 Business Systems Modernization Program



prior report,16 the ACIO, BSM, has incorporated several of the closed BSM challenges into the
ongoing high-priority issues and is in the process of creating measures to track the success of the
IRS’ actions.

Weaknesses in critical system development and program management processes
continue to exist

While the BSMO continues efforts to improve overall program management processes,
weaknesses continue to exist in requirements management, contract management, software
testing, and security controls.
Requirements Management – Continuing requirements development and management
problems encouraged the ACIO, BSM, to establish a Requirements Management Office. We
provided industry guidance and a summary of prior audit results17 to assist the proposed
Requirements Management Office in developing processes and procedures to effectively develop
and manage project requirements. The Office was established in March 2005 and is currently
identifying staffing needs and developing its mission and guidance to operate the program.
Contract Management – The BSMO is not consistently using contract provisions and
negotiations that would protect the best interest of the Federal Government.18 Contract award
justifications did not always provide adequate detail for not using firm fixed-price contract
provisions. Contracting provisions that could balance risk between the IRS and the contractor
were used inconsistently. Additionally, consistent application of best practices could further
improve the contract negotiations process.
Software Testing – Testing responsibilities were not always defined clearly in the Integration
Test and Deployment Office’s testing procedures,19 and testing practices showed they continued
to need improvement.20 Also, controls needed improvement to ensure all selected system
requirements were tested prior to system deployment.21



16
   The Internal Revenue Service Should Ensure the Root Causes of Business Systems Modernization Performance
Problems Are Successfully Addressed (Reference Number 2005-20-014, dated December 2004).
17
   The Modernization Program Is Establishing a Requirements Management Office to Address Requirements
Development and Management Problems (Reference Number 2005-20-023, dated January 2005).
18
   While Many Improvements Have Been Made, Continued Focus Is Needed to Improve Contract Negotiations and
Fully Realize the Potential of Performance-Based Contracting (Reference Number 2005-30-083, dated May 2005).
19
   The Office of Release Management Can Improve Controls for Modernization Program Coordination (Reference
Number 2004-20-157, dated September 2004).
20
   The Integrated Financial System Project Team Needs to Resolve Transition Planning and Testing Issues to
Increase the Chances of a Successful Deployment (Reference Number 2004-20-147, dated August 2004).
21
   System Requirements Were Not Adequately Managed During the Testing of the Custodial Accounting Project
(Reference Number 2005-20-019, dated December 2004).

                                                                                                     Page 6
                                          Annual Assessment of the
                                   Business Systems Modernization Program



Security Controls – Additional emphasis is needed by the BSMO, the PRIME contractor, and
the Mission Assurance and Security Services organization to ensure security controls are
adequately considered during development of new information systems. In our review22 of five
modernization systems, we identified security weaknesses that could have been addressed during
the design of these systems if appropriate attention had been devoted to security. IRS
organizations have advised us increased emphasis is now being given to ensure adequate security
requirements are considered during the design of systems.

The IRS reported it has successfully met rebaselined project cost and delivery
schedule estimates; however, current project work shows increased costs,
delayed schedules, and deferred systems capabilities

Since the start of the modernization effort, the BSM program has experienced cost overruns and
schedule delays in its project development and deployment. In early 2005, the IRS reported
project deliveries were within budget and schedule estimates for projects delivered since
August 2004. This assessment was based on cost and schedule estimates in the IRS’ May 2004
BSM Expenditure Plan.
Our analysis of the rebaselined project deliveries confirms the IRS’ assessment that project
releases (CADE Releases 1.1 and 1.2, e-Services Release 2.1.2, and MeF Releases 1, 2, and 3.1)
were generally within budget and on time based on estimates from the May 2004 BSM
Expenditure Plan. In the May 2004 Expenditure Plan, 4 projects allocated risk adjustment23
funding of $21,500,000 to cover anticipated additional costs (14 percent of planned costs).
We compared project cost estimates and schedules for ongoing project releases in the IRS’
May 2004 and February 2005 BSM Expenditure Plans and found increases in costs for 4 project
releases totaling $28,300,000 (48 percent increase for these releases) and delays in scheduled
completion dates ranging up to 14 months. The $28,300,000 increase represents a cost increase
of 20 percent for all ongoing project releases. The IRS funded these project cost increases
through expenditure plan additions and funding previously obtained through project risk
adjustments. IRS management advised these changes were caused by factors outside their
control such as additional requirements and Congressional delays in passing legislation.24




22
   Security Controls Were Not Adequately Considered in the Development and Integration Phases of Modernization
Systems (Draft report, dated June 24, 2005).
23
   Available funding for changes to cost estimates. To allow for changes around cost estimates, the IRS has included
a “risk adjustment” amount for each project or activity area.
24
   Our detailed analysis of all ongoing projects is shown in Appendix VIII.

                                                                                                            Page 7
                                          Annual Assessment of the
                                   Business Systems Modernization Program



In addition, there are significant cost increases and schedule delays over the life of the projects.
Table 1 presents an overall project cost and schedule analysis.25


                       Table 1: BSM Project Delivery and Cost Analysis

                        Project       Reported/Revised       Cost Variance        Schedule
                                       Estimated Cost        (in thousands)       Variance
                                       (in thousands)                           (in months)
                     MeF                        $50,303            +$21,057              +6.5
                     Release 1
                     e-Services                $148,820           +$102,271              +18
                     CADE                      $182,774           +$118,129              +30
                     Release 1
                     CADE                       $38,102            +$11,902              +18
                     Business
                     Rules
                     IFS                       $173,580            +$73,710             +1526
                     Release 1
                     CAP                       $138,950            +$91,789             +3327
                     Release 1

                   Source: GAO Review of the BSM expenditure plans.

Additionally, systems capabilities planned for specific project releases have been deferred until
later releases. For example:
     •   System capabilities planned for the CADE Release 1.1 to manage taxpayer accounts with
         address changes have been deferred to Release 1.3.1.
     •   System capabilities for the MeF project to timely display large-file tax returns for IRS
         employee use and to timely process U.S. Corporation Short-Form Income Tax Returns
         (Form 1120-A) have been deferred.
The deferral of system capabilities to later releases may increase the costs and schedules of
subsequent releases.
While the ability to meet short-term goals is a noteworthy accomplishment, the IRS has not
proven its ability to meet longer-term cost and schedule estimates. The ability of the BSM



25
   Further detail about the project costs and schedules are presented in Appendix IX, which includes a summary
analysis of the BSM program cost overruns and schedule delays.
26
   Work on the IFS has been suspended.
27
   Work on the CAP has been canceled.

                                                                                                           Page 8
                                           Annual Assessment of the
                                    Business Systems Modernization Program



program to sustain its FY 2004 accomplishments with projects in earlier stages of the life cycle
remains to be seen.

The IRS is scaling back and refocusing the modernization program to adjust to
reduced budgets

During FY 2004, the IRS had to scale back the scope of development activities due to budget
reductions by the Congress.28 The available budget resulted in scoping development activity to
focus primarily on the CADE, MeF, and Filing and Payment Compliance projects.
For example, the CADE project’s plans to process individual taxpayer accounts have been
revised several times to accommodate development delays and uncertainty in program direction.
Decisions are still to be made about incorporating the use of a business rules engine29 and using a
business rules approach.30 The IRS is also considering integrating some existing tax return
processing systems with the CADE to expedite and expand its capabilities. These decisions will
affect how the CADE will process segments of individual tax return populations
(e.g., Form 1040EZ, U.S. Individual Income Tax Return (Form 1040A), U.S. Individual Income
Tax Return (Form 1040), and supporting schedules 31 with refund, even-balance, or balance-due
accounts).
The refocus of the CADE project also affects related modernization project integration activity
such as the Customer Account Management (CAM) 32 project. The uncertainty of the CADE
development, along with reductions in available funding, will determine when the CAM can be
developed to provide taxpayers improved customer service with more accurate and timely
account maintenance and analysis. Without an application such as the CAM, the CADE can act
only as a system to process tax returns requiring no account adjustments.
In addition, the budget reduction prompted the IRS to suspend further development of the IFS
project and cancel the use of the CAP. The cancellation of the CAP made the initial releases

28
   Appendix V presents an analysis of the history of modernization program funding.
29
   A business rules engine translates business rules, or processing criteria, into executable computer code that
processes transactions related to a tax form and selects and executes correct rules based on the tax year and tax form.
30
   A business rule is a statement that defines or constrains some aspect of the business. A business rules approach
manages and automates an organization’s business rules so business people know where to find out what the rules
are and how business people can initiate or steward changes in the rules. For the IRS, business rules are principally
representations of tax laws, tax administration procedures, and tax forms.
31
   Form 1040A is a short version tax form. Form 1040 can have supporting schedules such as Itemized Deductions
(Schedule A), Interest and Ordinary Dividends (Schedule B), etc.
32
   The CAM project is intended to provide improved technology and business processes to better manage customer
service functions, use customer data to improve customer interactions, provide account and tax law assistance to
customers, manage case workflow for customer inquiries, and support other modernization efforts by providing
access to comprehensive, timely, and accurate customer and account information.

                                                                                                               Page 9
                                       Annual Assessment of the
                                Business Systems Modernization Program



unusable for accounting work, which was the CAP’s intended purpose. The IRS has indicated it
will leverage the knowledge gained and work products from the CAP in other modernization
initiatives, potentially reducing their costs or making other projects better. For instance, the IRS
reported the data models developed for the CAP can be used on the CADE project, data
segmentation and analysis can be performed in a more modernized way, and the analysis and
requirements developed for dozens of reports prepared to support GAO audits can be used as the
basis for a new system. While there may be some residual benefit from the CAP work, a
significant portion of the $135 million spent on this canceled project will result in unrecoverable
costs.
The CAP project was designated to use an additional $20 million to complete Release 1
development in FY 2005 and an estimated $110 million for remaining life cycle costs that will
not be incurred. The project cancellation allowed these funds to be put to better use on other
modernization activities.


The Internal Revenue Service Is Assuming Modernization Program
Management Responsibilities From Its PRIME Contractor

In February 2004, the Commissioner testified the IRS would carefully assess the PRIME
contractor’s performance on current projects and the results of the PRIME contractor’s overall
program management and integration efforts before awarding any follow-on work for existing
projects, due to concerns with the contractor’s performance.
Following this reconsideration of the PRIME contractor’s performance, we reviewed the status
of the role of integrator for the IRS’ modernization effort. Our reviews found the BSM program
has gone beyond the exclusive assignment of the PRIME contractor as its integrator. For
example, the BSMO acted as the integrator for the MeF project, and the Northrop Grumman
Corporation was serving as the integrator for the CAP. Diversifying the development activities of
the overall BSM program required the BSMO to consider how to assign responsibility for
integrating these projects.
In September 2004, when we reported33 concerns about the assignment of modernization
program integrator responsibilities, the Chief Information Officer (CIO) responded that some of
the responsibility for the implementation would move to the recently created position of ACIO,
Enterprise Services. The CIO planned for this ACIO to ultimately manage, direct, and oversee
cross-cutting areas that involve highly complex, mission critical, information system initiatives
such as demand analysis, Enterprise Architecture, configuration management, project reporting,
ELC management, and systems engineering.

33
 The Office of Release Management Can Improve Controls for Modernization Program Coordination (Reference
Number 2004-20-157, dated September 2004).

                                                                                                 Page 10
                                           Annual Assessment of the
                                    Business Systems Modernization Program



In January 2005, the IRS began taking over the role of systems integrator from the PRIME
contractor due to reductions in funding by the Congress for the BSM program and concerns
about the adequacy of the PRIME contractor’s performance at the program level. In the IRS’
new operating model, the IRS will now be responsible for program-level activities such as:

       •   Systems integration.
       •   Business requirements management/validation.
       •   Procurement administration.
       •   Integrated cost, schedule, and dependency management.
       •   Process management.
       •   Risk management.
       •   Configuration and change management.
       •   ELC management and enhancement.
       •   Release management.
       •   Transition management.
       •   Engineering.
       •   Architecture.
The IRS will continue to use the Development, Integration, and Test Environment (DITE) 34 and
the modernized infrastructure from the PRIME contractor. The PRIME contractor’s new
primary function is to deliver business solutions (projects) and to provide support services to the
IRS. On new projects, the PRIME contractor will compete for the contracts with other
contractors.
To be able to provide effective modernization program management, the IRS is in the process of
identifying and assigning staffing and responsibilities. The ACIO, BSM, is refining the BSM
staffing model to cover all of the BSMO activities and estimates staffing will require
approximately 350 positions (the BSM program is currently authorized 314 positions). Some of
these responsibilities may migrate from the BSMO to the newly created ACIO, Enterprise
Services. Responsibilities envisioned to migrate include configuration and change management,
business requirements management/validation, and ELC management and enhancement.
Skills needed to perform these responsibilities have been an issue of concern. Specialized skill
positions, such as systems architects and engineers, have been difficult to fill. As an example,
one of the BSM Challenges was to “strengthen IRS systems engineering capability through
external hiring.” Since this Challenge was issued in October 2003, the BSMO has been able to
identify eight systems engineers for hiring as of April 28, 2005. The BSMO had plans to fill a
total of 10 systems engineer positions.

34
     The DITE provides a system development and testing environment for BSM projects.

                                                                                            Page 11
                                          Annual Assessment of the
                                   Business Systems Modernization Program



The assumption of the integrator role by the IRS is recognized in the BSM program as part of its
highest priority needs and is included in its March 14, 2005, list of the BSM Highest Priority
issues for March 1, 2005, to September 1, 2005. Many of the issues proposed for this emphasis
revolve around program management transition from the PRIME contractor to the IRS. BSM
officials have focused these issues into the key areas of staffing and skill sets, contractor
management, requirements and demand management, and project management disciplines.


Because of Continuing Transition in the Modernization Program,
Previously Reported Challenges Still Exist

The IRS has reported in Congressional testimony it substantially met its FY 2005 plans for the
BSM program based on delivery of the planned CADE, MeF, e-Services, and IFS project
releases. In addition, the IRS Oversight Board’s March 2005 report35 states, “The IRS’ once
deeply troubled BSM program has recently experienced an important turnaround. Due to
improved management focus, BSM in 2004 delivered on schedule important technology products
that will generate greater efficiencies throughout the agency and create tangible benefits for
taxpayers.”
Although these releases went operational on or close to revised cost estimates and delivery dates,
they exceeded overall project cost and schedule estimates and did not provide all intended
system capabilities, as discussed above. The IRS has recognized its program shortfalls and
begun another year of transition for the BSM program. The program transition is in response to
continuing problems with key modernization program processes, staffing, and budget constraints
resulting in suspension of work on BSM projects and assumption of program management
responsibilities from the PRIME contractor.
Over the past 3 fiscal years, our annual BSM program assessments have cited 4 primary
challenges the IRS and its contractors must meet to achieve program success:
       1) Implement planned improvements in key management processes and commit necessary
          resources to enable success.
       2) Manage the increasing complexity and risks of the BSM program.
       3) Maintain the continuity of strategic direction with experienced leadership.
       4) Ensure contractor performance and accountability are effectively managed.
Although the IRS has taken a number of actions in response to our recommendations, our recent
audit findings show these four challenges still exist. Issues confronting the BSM program
include the following:



35
     IRS Oversight Board FY 2006 IRS Budget (dated March 2005).

                                                                                          Page 12
                                       Annual Assessment of the
                                Business Systems Modernization Program



     •   Key management processes such as requirements management and configuration
         management continue to need attention and implementation, and testing processes
         continue to need program guidance and effective implementation. For example, the IRS
         and the CAP contractor did not track system requirements during testing, and the IRS
         accepted the system without knowing or reviewing how many requirements were
         successfully verified during testing.
     •   Managing the complexity and risks of the BSM program is a challenge the IRS has
         recognized. In our FY 2004 Annual BSM program assessment,36 we reported the BSM
         Challenges Plan appeared to be an appropriate set of actions to take, and the IRS and
         PRIME contractor needed to complete the corrective actions to address the root causes
         identified. However, a measurement plan, including specific measurement criteria, was
         not created to determine whether the activities are leading to improvements in the BSM
         program. These activities now need to be managed through the key focus areas and
         high-priority issues of the ACIO, BSM.
     •   Maintaining the continuity of strategic direction with experienced leadership has
         continued to challenge the BSM program. The IRS has recently hired a number of
         executives from outside the IRS to increase the management capabilities and skills
         available to the BSM program. This effort continues prior initiatives but is difficult to
         sustain, due to the turnover of executives in these positions. Therefore, maintaining the
         continuity of strategic direction with experienced leadership has continued to challenge
         the BSM program.
         For example, the current ACIO, BSM, started in early 2004 and is the fifth person to hold
         this executive position in the 7 years of the program. Project management has also
         experienced leadership changes. For example, the CADE Program Director retired in
         February 2004, and actors have filled the position since then. A candidate for the CADE
         Program Director was appointed in May 2005 and is in the process of relocating to this
         position. In addition, the Modernization and Information Technology Services
         organization is realigning responsibilities with the establishment of the ACIO, Enterprise
         Services. These changes all require time to develop program direction and processes to
         effectively manage the assigned responsibilities.
     •   The effective management of contractor performance and accountability will become
         even more important and difficult for the IRS because it is now functioning as the




36
  Annual Assessment of the Business Systems Modernization Program (Reference Number 2004-20-107, dated
June 2004).

                                                                                                  Page 13
                                          Annual Assessment of the
                                   Business Systems Modernization Program



        systems integrator for all contractors. In addition, during the previous Tax Systems
        Modernization (TSM)37 efforts, the IRS had difficulties with this responsibility.
While the IRS has taken steps to address these areas, continued management attention will be
required for the IRS to be successful in its modernization activities. The GAO also recognized
the need for continued management attention and has included the BSM program as a high-risk
area in its 2005 High-Risk Report,38 as it has since 1995. The GAO high-risk program identifies
and helps resolve serious weaknesses in areas that involve substantial resources and critical
services to the public.
Therefore, we remain cautious about looking forward based on FY 2004 results, due to
uncertainties related to BSM roles and responsibilities and the challenges facing the IRS that
could affect future accomplishments.
        Management’s Response: The CIO stated appreciation for acknowledgement of
        the BSM program’s ability to meet short-term goals during the past, the complexity of the
        BSM program, and the progress made. The CIO also agreed with our observation that
        the BSM has a lot of work ahead.
        The CIO cited progress in four key areas that align with the primary challenges the IRS
        and its contractors must meet to achieve program success outlined in this report.
             1. The 2005 modernization budget reflects a portfolio that more closely aligns the
                BSM workload with the IRS’ and PRIME contractor’s management capacity.
             2. The IRS assigned a business unit leader to each project with responsibility for
                leading the related BSM Governance Committee and sharing accountability for
                delivering the modernization project as stated in his or her annual performance
                commitments.
             3. The IRS Commissioner meets monthly with the Chief Operating Officer of the
                Computer Sciences Corporation (the PRIME contractor) to reinforce the
                accountability of the contractor to the IRS. By restructuring BSM project
                contracts with the PRIME contractor, the IRS has shifted an appropriate amount
                of financial risk to the contractor and tied costs to performance. These steps have
                resulted in improved contractor performance, as demonstrated in the deliverables
                in 2004 and the general adherence to costs and schedules.
             4. The IRS has made great progress in hiring experienced executives and seasoned
                managers from outside the agency who have expertise in running large-scale


37
   In late 1986, the IRS produced plans for a modernization effort, known as TSM, that was expected to be the key to
the IRS’ vision of a virtually paper-free work environment where taxpayer account updates would be rapid and
taxpayer information would be readily available to IRS employees to respond to taxpayer inquiries.
38
   HIGH-RISK SERIES: An Update (GAO-05-207, dated January 2005).

                                                                                                          Page 14
                             Annual Assessment of the
                      Business Systems Modernization Program



       information technology programs and projects. A little over a year ago the mix of
       leadership at the top of the BSM program consisted of one outside expert and six
       internal IRS executives. Today, that mix is four outside experienced experts and
       three internal IRS executives. This mix is a much better balance of the project
       management and technology talent and tax administration experience needed to
       successfully run the BSM program.
The CIO is very confident the IRS and the BSMO have the management focus and
discipline in place to ensure they are “doing things right” as opposed to “doing things
fast,” such as exiting milestones prematurely. The ongoing challenge will be balancing
the scope and pace of projects consistent with capacity, ensuring the right people are in
place before launching a project, and setting realistic delivery schedules and cost
estimates.




                                                                                   Page 15
                                          Annual Assessment of the
                                   Business Systems Modernization Program



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the progress of the Business Systems
Modernization (BSM) program for Fiscal Year (FY) 2005 as required by the Internal Revenue
Service (IRS) Restructuring and Reform Act of 1998.1 To accomplish this objective, we:
I.       Determined the current condition of the BSM program.
         A. Obtained and reviewed the following documents:
             1. Treasury Inspector General for Tax Administration (TIGTA) reports issued from
                April 2004 through March 2005 and three previous BSM annual assessment
                reports (issued in 2002, 2003, and 2004).2
             2. The IRS Oversight Board documents related to the 2004 and 2005 reports on the
                BSM program to identify current Oversight Board issues and concerns.
             3. Government Accountability Office reports related to BSM program activities
                issued between April 2004 and March 2005.
         B. Identified the status of cost and schedule adherence for open BSM projects.
II.      Determined the expected accomplishments for the BSM program during FY 2005.
         A. Obtained the current status of the 48-point action plan, known as the
            BSM Challenges Plan.
         B. Obtained and reviewed the Status of Highest Priority Issues in Current Remediation
            Plans document to determine progress in correcting areas identified by the new
            Associate Chief Information Officer, BSM.
         C. Identified the BSM program capabilities released and planned for release during
            FY 2005.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix VI for a detailed listing of recent TIGTA reports and associated findings.

                                                                                                              Page 16
                                   Annual Assessment of the
                            Business Systems Modernization Program



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Edward A. Neuwirth, Audit Manager
James Douglas, Senior Auditor
Glen J. Rhoades, Senior Auditor




                                                                                         Page 17
                                  Annual Assessment of the
                           Business Systems Modernization Program



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:E
Director, Stakeholder Management Division OS:CIO:SM
Deputy Associate Chief Information Officer, Business Integration OS:CIO:B:BI
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 18
                                      Annual Assessment of the
                               Business Systems Modernization Program



                                                                                              Appendix IV

             Internal Revenue Service Modernization
                       Projects and Status

Table 1 presents the modernization projects initiated by the Internal Revenue Service (IRS) and
the IRS’ status of these projects as of June 6, 2005.


                            Table 1: IRS Modernization Projects


   Project Name         Year           Project Description                 Project Status per the IRS
                      Initiated/
                        Year
                      Launched

 Custodial            Initiated    Uses a data warehousing             Canceled February 2005.
 Accounting Project    1999/       approach for storing, analyzing,
                        Not        and reporting taxpayer accounts
                      Launched     and collections information.

 Infrastructure
 Shared Services:

 Security and         Initiated    Provides a customer-focused         • Provides secure Internet solutions for
 Technology            1999/       technical infrastructure for          registered and employee users’ and
 Infrastructure       Launched     secure telephony and electronic       related registration processes, security
 Release                2002       interaction among employees,          access controls, intrusion detection,
                                   tax practitioners, and taxpayers.     and audit trail processing.
                                                                       • Is critical to the success of the
                                                                         Integrated Financial System (IFS),
                                                                         e-Services, Internet Refund/Fact of
                                                                         Filing (IRFoF), Modernized e-file
                                                                         (MeF), and Internet Employee
                                                                         Identification Number projects that
                                                                         rely on secure, robust portal access.
                                                                       • Supports the acquisition, installation,
                                                                         and operation of the development and
                                                                         test environments that support all
                                                                         modernization initiatives. The
                                                                         increased stability of the
                                                                         Development, Integration, and Test
                                                                         Environment and timely acquisition

                                                                                                          Page 19
                                      Annual Assessment of the
                               Business Systems Modernization Program




 Project Name           Year           Project Description                Project Status per the IRS
                      Initiated/
                        Year
                      Launched

Security and                                                           of hardware/software to support
                                                                       project schedules has contributed
Technology
Infrastructure                                                         significantly to improved project
Release (continued)                                                    performance.

Enterprise Systems    Initiated    Executes a strategy to provide    • Provides enterprise systems
Management             2000/       network and systems                 management and monitoring of the
                      Launched     management to improve the           e-Services, IFS, MeF, and IRFoF
                        2002       information technology              projects and core infrastructure
                                   infrastructure availability and     systems.
                                   performance.                      • Gathers information and provides
                                                                       appropriate response through
                                                                       monitors at the component, business,
                                                                       and enterprise levels.
                                                                     • Provides reliability, high availability,
                                                                       and optimal performance of complex
                                                                       e-business infrastructure and
                                                                       applications, helping to meet and
                                                                       exceed both internal and external
                                                                       service level agreements and
                                                                       reducing total cost of ownership.
                                                                     • Allows for proactive identification
                                                                       and resolution of information
                                                                       technology problems before they
                                                                       affect business performance.
Customer              Initiated    Improves communications           • 68,000 calls in one 3-minute period
Communications         1999/       infrastructure, including           during initial week (coincided with
                      Launched     telephone call management,          start of Advanced Tax Refund of
                        2001       call routing, and customer          2001).
                                   self-service applications.        • 50 percent reduction in waiting time
                                                                       for assistors to answer calls.
                                                                     • 50 percent reduction in abandoned
                                                                       calls.
                                                                     • More accurate prerouting of calls.




                                                                                                        Page 20
                                          Annual Assessment of the
                                   Business Systems Modernization Program




     Project Name         Year             Project Description                 Project Status per the IRS
                        Initiated/
                          Year
                        Launched

    Customer             Initiated     Provides standard tax              • Deployed to almost
    Relationship          1999/        computation software to Large        4,000 Large/Medium/Small Business
    Management Exam      Launched      and Mid-Size Business (LMSB)         revenue agents.
                           2001        Division revenue agents.
                                                                          • Taxpayers can independently verify a
                                                                            revenue agent’s computations.
                                                                          • Allows for “what-if” computations to
                                                                            better use the examiners’ and
                                                                            taxpayers’ time.



    Customer Account     Initiated     Provides an online, modernized     • CADE Release 1.1 went into
    Data Engine           2000/        data infrastructure that will        production the week of July 12, 2004,
    (CADE)               Launched      house the authoritative taxpayer     processing a subcomponent of
                           2004        account and return data.             Income Tax Returns for Single and
                                                                            Joint Filers With No Dependents
                                                                            (Form 1040EZ) from the 2004 Filing
                                                                            Season1 and issuing refunds over
                                                                            50 percent faster than the legacy
                                                                            Master File.2
                                                                          • The processing of returns in the
                                                                            CADE marks the first time in
                                                                            40 years that American tax returns
                                                                            have been processed in a system other
                                                                            than the Master File.
                                                                          • CADE Release 1.2 went into
                                                                            production on January 18, 2005, for
                                                                            the 2005 Filing Season. It was
                                                                            delivered on time and on budget, and
                                                                            it is currently stable and processing as
                                                                            expected.
                                                                            o Cycle time from filing to refund
                                                                                  issuance has been significantly
                                                                                  reduced to less than 5 days for
                                                                                  electronically filed
                                                                                  Forms 1040EZ.




1
 The period from January through mid-April when most individual income tax returns are filed.
2
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.

                                                                                                             Page 21
                                   Annual Assessment of the
                            Business Systems Modernization Program




 Project Name        Year           Project Description                Project Status per the IRS
                   Initiated/
                     Year
                   Launched
                                                                   o    Over 1.4 million returns have
CADE (continued)
                                                                        been posted to CADE
                                                                        Release 1.2, with over
                                                                        $424,000,000 in refunds
                                                                        generated (as of 5/27/2005).
                                                                 • Have begun to quantify taxpayer
                                                                   savings due to decreased cycle time
                                                                   in CADE processing.
                                                                   o $47,000 in potential earned
                                                                       interest for direct deposit
                                                                       (3.5 days v. 7 days).
                                                                   o $144,000 in potential earned
                                                                       interest for paper processing (on
                                                                       average 7 days quicker).
                                                                   o $1.73 million in Refund
                                                                       Anticipation Loan fees
                                                                       eliminated by CADE processing.

e-Services          Initiated   Focuses on revolutionizing the   • Over 87,000 online registration
                     2000/      way taxpayers transact and         participants of the Registered User
                   Launched     communicate with the IRS.          Portal.
                   2003-2004                                     • Over 133,000 Electronic Return
                                                                   Originator applications for e-file.
                                                                 • Increase in e-filing by practitioners in
                                                                   2004 above expected growth trend,
                                                                   and operational efficiencies through
                                                                   use of online services through the
                                                                   Registered User Portal, amounted to
                                                                   nearly $5 million in process savings
                                                                   for the IRS.
                                                                 • Over 197,000 online requests for
                                                                   Preparer Taxpayer Identification
                                                                   Numbers (TIN).
                                                                 • Over 42 million bulk TIN match
                                                                   requests processed.
                                                                 • Over 1.5 million interactive TIN
                                                                   match requests since launch.
                                                                 • The TIN matching tool in the current
                                                                   suite of e-Services applications has
                                                                   uncovered over $8M in unpaid taxes
                                                                   on Miscellaneous Income (Form 1099
                                                                   series).

                                                                                                    Page 22
                                         Annual Assessment of the
                                  Business Systems Modernization Program




     Project Name         Year            Project Description               Project Status per the IRS
                        Initiated/
                          Year
                        Launched

    e-Services                                                          • The Transcript Delivery System has
    (continued)                                                           processed over 80,000 requests for
                                                                          transcripts via the Registered User
                                                                          Portal and approximately 22,000 via
                                                                          the Employee User Portal (EUP)
                                                                          since launch on May 16, 2005.
                                                                        • Over 20,000 Power of Attorney and
                                                                          Declaration of Representative
                                                                          (Form 2848) requests have been
                                                                          received through Disclosure
                                                                          Authorization.
                                                                        • Over 9,000 users are now using the
                                                                          EUP for handling transcript requests.
                                                                        • Received and processed over
                                                                          5,200 requests via Electronic Account
                                                                          Resolution.
                                                                        • Total operational savings
                                                                          (print/mail/labor costs) of over
                                                                          $668,000 (as of 6/6/2005).
    Human Resources      Initiated    Delivers an enterprise solution   • All 109,000 IRS employee accounts
    (HR) Connect          2001/       to allow IRS employees to           are now on HR Connect;
                         Launched     access and manage their human       56,703 employees have authenticated
                           2002       resources information online.       (registered) on the system.
                                                                        • Accessible by kiosks for campus3
                                                                          employees who do not have desktop
                                                                          access. All kiosks are to be in place
                                                                          by January 2006.
                                                                        • HR Connect has recently upgraded
                                                                          the software platform to
                                                                          PeopleSoft 8.3®; enhancements
                                                                          include increased employee
                                                                          self-service functionality and
                                                                          additional management reports.
                                                                        • HR Connect Workforce Analytics
                                                                          offers management information to
                                                                          each business unit based on its
                                                                          organizational requirements (e.g., the
                                                                          status of the workforce, vacancies,


3
 The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.

                                                                                                             Page 23
                                   Annual Assessment of the
                            Business Systems Modernization Program




 Project Name        Year            Project Description                Project Status per the IRS
                   Initiated/
                     Year
                   Launched

Human Resources                                                       upcoming retirements, and pending
                                                                      personnel actions are available at
(HR) Connect
(continued)                                                           each management level).
                                                                    • Cited by the IRS Commissioner as a
                                                                      factor in the redirection of roughly
                                                                      750 staff years to enforcement.
                                                                    • The Department of the Treasury was
                                                                      selected as 2004 Computerworld
                                                                      Honors Laureate for
                                                                      HR Connect development and
                                                                      implementation.
Integrated           Initiated   Operates as the new IRS            • Achieved initial operating capability
Financial System      2001/      accounting system, replacing         on November 10, 2004, and achieved
(IFS)               Release 1    the IRS’ core financial systems,     full operating capability on
                   launched in   including expenditure controls,      January 31, 2005.
                       2004      accounts payable, accounts         • Prior year data have been converted,
                                 receivable, general ledger,          and over 1,700 end users have been
                                 budget formulation, and              trained and are using the IFS daily.
                                 purchasing controls.               • 100 percent of the backlogged
                                                                      invoices created during the cutover
                                                                      period have been paid.
                                                                    • Successfully processed payroll data
                                                                      for the first 12 pay periods. All IFS
                                                                      databases retain current payroll
                                                                      information.
                                                                    • Over 89,000 procurement
                                                                      commitments, obligations, and
                                                                      receipt/acceptance documents had
                                                                      been processed through
                                                                      May 30, 2005.
                                                                    • The monthly Statement of
                                                                      Transactions (Form SF-224) has been
                                                                      submitted to the Department of the
                                                                      Treasury on time since going live in
                                                                      November 2004.
                                                                    • The monthly accounting report has
                                                                      been submitted to the Department of
                                                                      the Treasury on time, within the
                                                                      3-day close time period, since the IFS
                                                                      went live in November 2004.



                                                                                                      Page 24
                                        Annual Assessment of the
                                 Business Systems Modernization Program




 Project Name         Year             Project Description                 Project Status per the IRS
                    Initiated/
                      Year
                    Launched

Internet            Initiated      Improves customer self-service     • Processed 26 million refund
Refund/Fact of       2001/         to the taxpayer by providing         status/fact of filing inquiries this year
Filing (IRFoF)      Launched       instant refund status                (as of 5/25/2005); successful
                      2002         information and instructions for     completion rate of 78.4 percent.
                                   resolving refund problems to       • For the 2005 Filing Season, “Where’s
                                   taxpayers with Internet access.      My Refund” reduced telephone
                                                                        refund call volumes by nearly
                                                                        24 percent.
                                                                      • Thirty-two percent of all refund
                                                                        inquiry contacts are handled by the
                                                                        IRFoF application via the Internet.
                                                                      • Modest reduction of IRS
                                                                        telecommunications costs (about
                                                                        $250,000).
                                                                      • Every 1,000 IRFoF contacts eliminate
                                                                        1,500 – 2,000 refund assistance calls.
Advance Child Tax   Initiated      Modifies the IRFoF application     • 15.5 million inquiries in 2003;
Credit               2002/         to provide taxpayers with            12.3 million inquiries from
                    Launched       Advance Child Tax Credit             October 2003 to October 2004.
                      2003         refund status on the Internet.     • Peak date 1.1 million inquiries.
                                                                      • Application served intended purpose
                                                                        and life cycle ended
                                                                        December 31, 2004.
Internet Employee    Initiated     Allows businesses and              • 3.42 million Internet EIN applications
Identification        2002/        taxpayers to apply for and           received as of 05/21/2005.
Number (EIN)           2003        receive EINs over the Internet.

Customer Account    Initiated      Interfaces the redesigned          • Suspended.
Management           2002/         business processes to be used
                      Not          on a daily basis by IRS
                    Launched       customer service
                                   representatives. Due to budget
                                   constraints, the project has not
                                   been funded since Fiscal
                                   Year (FY) 2003.




                                                                                                           Page 25
                                           Annual Assessment of the
                                    Business Systems Modernization Program




      Project Name          Year             Project Description              Project Status per the IRS
                          Initiated/
                            Year
                          Launched

    Filing and Payment     Initiated    Improves the processes and        • Release 1 will provide infrastructure,
    Compliance              2001/       technologies that support the       processes, and organizational
    (F&PC)                   Not        IRS’ filing compliance and          structure to implement the law
                           Launched     collection activities and           authorizing private debt collection.4
                                        manages the associated            • Release 1.1, scheduled for
                                        organizational change.              January 2006, will require primarily
                                                                            manual processes, given the
                                                                            development time and requirements
                                                                            for the F&PC system. A contract was
                                                                            awarded for the software systems
                                                                            support on March 24, 2005;
                                                                            operations sites were selected on
                                                                            March 31, 2005; Request for Proposal
                                                                            was issued to vendors on
                                                                            April 27, 2005.
                                                                          • Release 1.2 will move the
                                                                            Commercial Off-the-Shelf application
                                                                            from a stand-alone server into the IRS
                                                                            Enterprise Architecture.
                                                                          • Release 1.3 will provide expanded
                                                                            functionality that enables delivery of
                                                                            the full volume of casework.
                                                                          • Release 2 will provide new collection
                                                                            tools to call centers and campuses.
                                                                          • Release 3 will provide new collection
                                                                            tools to field operations.




4
    American Jobs Creation Act of 2004, Pub. L. No. 108-357, 118 Stat. 1418 (2004).

                                                                                                            Page 26
                                    Annual Assessment of the
                             Business Systems Modernization Program




 Project Name         Year           Project Description             Project Status per the IRS
                    Initiated/
                      Year
                    Launched

Modernized e-File   Initiated    Develops the modernized,        • Launched Release 1 February 2004
(MeF)                2002/       web-based platform for filing     covering the U.S. Corporation
                    Launched     IRS forms electronically.         Income Tax Return (Form 1120) and
                      2004                                         U.S. Income Tax Return for an
                                                                   S Corporation (Form 1120S) with
                                                                   53 forms and schedules and the U.S.
                                                                   Income Tax Return for Certain
                                                                   Political Organizations
                                                                   (Form 1120-POL), Return of
                                                                   Organization Exempt From Income
                                                                   Tax (Form 990), Short Form Return
                                                                   of Organization Exempt From
                                                                   Income Tax (Form 990-EZ), and
                                                                   Application for Extension of Time To
                                                                   File an Exempt Organization Return
                                                                   (Form 8868).
                                                                 • Launched Release 2 August 2004
                                                                   enabling the electronic filing of
                                                                   43 additional forms and schedules
                                                                   submitted by the largest corporations.
                                                                 • Release 3.1 was delivered
                                                                   January 2005, for second season of
                                                                   e-filing, accommodating new LMSB
                                                                   Division forms the Income (Loss)
                                                                   Reconciliation for Corporations With
                                                                   Total Assets of $10 Million or More
                                                                   (Schedule M-3), the Return of Private
                                                                   Foundation or Section 4947(a)(1)
                                                                   Nonexempt Charitable Trust Treated
                                                                   as a Private Foundation
                                                                   (Form 990-PF), and Application for
                                                                   Automatic Extension of Time To File
                                                                   Corporation Income Tax Return
                                                                   (Form 7004). Release 3.1 moved to
                                                                   the Information Technology Services
                                                                   function on April 1, 2005.
                                                                 • Over 192,000 accepted MeF project
                                                                   return submissions were received –
                                                                   twice the number of projected
                                                                   receipts.
                                                                 • Over 11,000 participating Electronic
                                                                   Return Originators (Forms 1120 and
                                                                   990).

                                                                                                  Page 27
                                         Annual Assessment of the
                                  Business Systems Modernization Program




    Project Name          Year            Project Description               Project Status per the IRS
                        Initiated/
                          Year
                        Launched

  MeF (continued)                                                       • Error fallout rates for the MeF project
                                                                          are significantly lower than those for
                                                                          paper processing. For corporate
                                                                          returns alone, the MeF project has a
                                                                          fallout rate of 6 percent as compared
                                                                          to a 17 percent fallout rate for paper
                                                                          processing.
                                                                        • Over $9 million of real business
                                                                          savings to the American taxpayers
                                                                          and to the IRS for FY 2005 (as of
                                                                          June 6, 2005):
                                                                          o Savings to the taxpayer in tax
                                                                              preparation fees, postage, and
                                                                              storage.
                                                                          o Savings to the IRS in operational
                                                                              efficiencies in return processing,
                                                                              storage, and international
                                                                              duplicate matching.
                                                                        • In January 2005, the MeF project was
                                                                          selected as one of the “Top 25
                                                                          Finalists” for the fifth annual
                                                                          Excellence.Gov awards sponsored by
                                                                          Industry Advisory Group’s eGov
                                                                          Shared Interest Group.



Source: The IRS Business Systems Modernization Office and its online web site.




                                                                                                          Page 28
                                                                   Annual Assessment of the
                                                            Business Systems Modernization Program



                                                                                                                                       Appendix V

  Business Systems Modernization Funding Timeline

Chart 1 depicts cumulative funding received by the Internal Revenue Service (IRS) Business
Systems Modernization (BSM) program for contractor costs.


                               Chart 1: BSM Program Funding Timeline (dollars are cumulative)


                             $2,000                                                                                                          $1,937


                             $1,800

                                                                                                                                 $1,592
                             $1,600                                                                                   $1,488


                             $1,400
     Dollars (in millions)




                             $1,200
                                                                                                           $968
                             $1,000


                              $800

                                                                                                 $577
                              $600
                                                                                     $449

                              $400
                                                               $216       $249

                              $200
                                          $35       $68

                                $0
                                      Apr 1999   Dec 1999   Mar 2000   Aug 2000   Sept 2000   Mar 2001   Oct 2001   Jan 2003   Sept 2003   May 2004




   Source: BSM expenditure plans.




                                                                                                                                                      Page 29
                                                           Annual Assessment of the
                                                    Business Systems Modernization Program



Chart 2 depicts a timeline of the funding received annually by the BSM program for program
management and development of business and infrastructure projects.


                                             Chart 2: BSM Program Funding by Fiscal Year


                               $450
                                                  $414
                                                                  $391                   $388
                               $400                                              $378



                               $350



                               $300
       Dollars (in millions)




                               $250
                                                                                                 $203    $199

                               $200



                               $150                       $128


                               $100


                                       $35
                               $50



                                $0
                                      1999       2000    2001    2002       2003        2004    2005    2006
                                                                   Fiscal Year



    Source: BSM expenditure plans. NOTE – The 2006 amount has not yet been appropriated; the figure is from
    the 2006 IRS Congressional Justification.




                                                                                                                Page 30
                                                             Annual Assessment of the
                                                      Business Systems Modernization Program



Chart 3 depicts the cumulative funding received by the BSM program for internal
(noncontractor) costs of managing BSM activities. The BSM Office (BSMO) stated
approximately 25 percent of its noncontractor budget since Fiscal Year (FY) 2001 was used to
support non-BSM program activities in the IRS.


Chart 3: Internal (noncontractor) BSM Funding Timeline (dollars are cumulative)



                            $250.00


                                                                                                          $212.8



                            $200.00


                                                                                                $163.1
    Dollars (in millions)




                            $150.00

                                                                                      $119.0




                            $100.00
                                                                             $82.4



                                                                    $54.3

                             $50.00
                                                           $27.6

                                                $11.8
                                        $6.2


                              $0.00
                                      1999     2000       2001     2002     2003     2004      2005      2006*




Source: FY 2005 IRS Congressional Justification and BSM budget records. * NOTE – The 2006 estimate is based
on the March 9, 2005, BSM Program Management Review (314 Full-Time Equivalents (FTE)1 multiplied by the
2005 cost per FTE of $158,097).




1
 An FTE is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable
days in a particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff hours. For FY 2005, 1 FTE is equal to
2,088 staff hours.

                                                                                                                 Page 31
                                                               Annual Assessment of the
                                                        Business Systems Modernization Program



Chart 4 depicts a timeline of the funding received annually by the BSM program for internal
(noncontractor) costs of managing BSM activities.


                                     Chart 4: Internal (noncontractor) BSM Costs by Fiscal Year


                                                                                                           $49.6
                               $50


                                                                                                $44.1
                               $45


                               $40                                                      $36.6


                               $35
       Dollars (in millions)




                                                                               $28.1
                               $30
                                                                      $26.7

                               $25


                               $20
                                                             $15.8

                               $15


                               $10
                                          $6.2     $5.6

                                $5


                                $0
                                        1999     2000       2001     2002     2003     2004         2005       2006*




    Source: FY 2005 IRS Congressional Justification and BSMO budget estimates. * NOTE – The 2006 estimate
    is based on the March 9, 2005, BSM Program Management Review (314 FTEs multiplied by the 2005 cost per
    FTE of $158,097).




                                                                                                                       Page 32
                                                            Annual Assessment of the
                                                     Business Systems Modernization Program



Chart 5 depicts the funding received by the BSM program for internal (noncontractor) and
external (contractor) costs of managing BSM activities.


                                Chart 5: Internal and External BSM Program Costs (in millions)




                           $2,500                                                                           $2,150


                                                                                $1,937

                           $2,000
   Dollars (in millions)




                           $1,500




                           $1,000




                            $500                 $213




                              $0
                                       Internal Costs*                 External Costs               Total
                                                         Total BSM Costs Fiscal Years 1999 - 2006



 Source: BSM Spending Plan; Transportation, Treasury, Independent Agencies, and General Government
 Appropriations Act, 2005, H.R. 5025; FY 2005 IRS Congressional Justification; and February 14, 2005,
 discussion with the Associate Chief Information Officer, BSM. * NOTE – The BSMO stated approximately
 25 percent of its noncontractor budget since FY 2001 was used to support non-BSM program activities in the IRS.




                                                                                                                     Page 33
                                             Annual Assessment of the
                                      Business Systems Modernization Program



                                                                                                          Appendix VI

     Recent Treasury Inspector General for Tax
  Administration Reports and Associated Findings on
          Business Systems Modernization

Table 1 lists Treasury Inspector General for Tax Administration (TIGTA) reports issued from
August 2004 through May 2005 and associated findings.


                            Table 1: Recent TIGTA Reports With Findings

         Report Title                                                        Findings
The Integrated Financial System       Project testing       Additional
Project Team Needs to Resolve         practices can be      improvements in
Transition Planning and Testing       improved.             transition planning
Issues to Increase the Chances of a                         are needed.
Successful Deployment (Reference
Number 2004-20-147, dated
August 2004)

The Office of Release Management      The integrator role   The Release            Testing
Can Improve Controls for              is not clearly        Scheduling Office      responsibilities are
Modernization Program                 defined in the        does not have          not always defined
Coordination                          modernization         formally documented    clearly in the
(Reference Number 2004-20-157,        program.              procedures to direct   Integration Test
dated September 2004)                                       its activities.        and Deployment
                                                                                   Office’s testing
                                                                                   procedures.

To Ensure the Customer Account        Significant           Improvements to the    Manual processes       The CADE program
Data Engine’s (CADE) Success,         software changes      CADE Operator’s        within the CADE        does not have a
Prescribed Management Practices       were added to the     Guide need to be       Release 1.1 need to    dedicated system
Need to Be Followed (Reference        CADE Release 1.1      completed.             be automated for       architect, and
Number 2005-20-005, dated             and were not                                 future releases.       disaster recovery
November 2004)                        adequately tested.                                                  capabilities were not
                                                                                                          tested.

The Internal Revenue Service          The Business          The BSM Challenges
Should Ensure the Root Causes of      Systems               Plan did not include
Business Systems Modernization        Modernization         measures to
Performance Problems Are              (BSM) Challenges      determine whether
Successfully Addressed                Plan did not          actions taken were
(Reference Number 2005-20-014,        address all study     successful.
dated December 2004)                  recommendations.



                                                                                                                     Page 34
                                             Annual Assessment of the
                                      Business Systems Modernization Program



         Report Title                                                         Findings
System Requirements Were Not          System                The main system           Recommendations
Adequately Managed During the         requirements were     performance               for improvement
Testing of the Custodial Accounting   not adequately        requirement will not      have not been
Project (Reference Number             managed during        be tested prior to        implemented.
2005-20-019, dated                    testing.              deployment.
December 2004)

The Modernization Program Is          Industry guidance     Detailed cost and
Establishing a Requirements           and prior audit       resource analyses
Management Office to Address          results will assist   will help the
Requirements Development and          the proposed          proposed
Management Problems (Reference        Requirements          Requirements
Number 2005-20-023, dated             Management            Management Office
January 2005)                         Office in             determine the extent
                                      effectively           of services it can
                                      developing and        offer.
                                      managing project
                                      requirements.

The Internal Revenue Service Has      The IRS’ rights to
Appropriate Processes to Accept       modernization
Modernization Program Software        source code
From Developers (Reference            material are
Number 2005-20-024, dated             protected.
February 2005)

The Chief Information Officer Is      Some corrective       All open corrective
Taking Steps to Timely Complete       actions are not       actions are significant
Corrective Actions to Treasury        being resolved        and can be
Inspector General for Tax             timely.               prioritized.
Administration Reports (Reference
Number 2005-20-071, dated
April 2005)

While Many Improvements Have          Justifications did    Contracting               Consistent
Been Made, Continued Focus Is         not always provide    provisions that could     application of best
Needed to Improve Contract            adequate detail for   balance risk between      practices could
Negotiations and Fully Realize the    choosing a nonfirm    the Internal Revenue      further improve the
Potential of Performance-Based        fixed-price           Service and the           contract
Contracting (Reference                contract type.        contractor were used      negotiations
Number 2005-20-083, dated                                   inconsistently.           process.
May 2005)


Source: TIGTA audit reports issued from April 2004 through March 2005.




                                                                                                            Page 35
                                           Annual Assessment of the
                                    Business Systems Modernization Program



                                                                                                 Appendix VII

                         Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.


ELC Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
Life-Cycle Processes, which are organized into phases and subphases and address all domains of
   business change.
Management Processes, which are organized into management areas and operate across the
  entire life cycle.




1
  The PRIME contractor is the Computer Sciences Corporation (CSC), which heads an alliance of leading
technology companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the CSC during the contract period.

                                                                                                              Page 36
                                                              Annual Assessment of the
                                                       Business Systems Modernization Program




                                                       Enterprise Life-Cycle Processes



                                      IRS Governance and Investment Decision Management
  Management




                                               Program Management and Project Management

                                      Architectural Engineering / Development Coordination

                                                       Management Support Processes


                                                                                                    Business Processes




                                                                                                                             Operations & Support
                                                                                                            Applications
                  Vision & Strategy




                                                        Development
                                        Architecture




                                                                                    Deployment
                                                                      Integration
  Life Cycle




                                                                                                                    Data


                                                                                                 Organizational Change


                                                                                                 Technical Infrastructure


                                                                                                 Facilities Infrastructure


               Source: ELC Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
         •       Vision and Strategy - This phase establishes the overall direction and priorities for
                 business change for the enterprise. It also identifies and prioritizes the business or system
                 areas for further analysis.

                                                                                                                                                Page 37
                                     Annual Assessment of the
                              Business Systems Modernization Program



   •   Architecture - This phase establishes the concept/vision, requirements, and design for a
       particular business area or target system. It also defines the releases for the business area
       or system.
   •   Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
   •   Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine if they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
   •   Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
   •   Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.


Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
   •   IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
   •   Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its


                                                                                            Page 38
                                     Annual Assessment of the
                              Business Systems Modernization Program



       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
   •   Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.
   •   Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.


Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of system development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
   •   Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and system development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the Enterprise Architecture.
   •   Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.




                                                                                          Page 39
                                 Annual Assessment of the
                          Business Systems Modernization Program



•   Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
    leading up to Milestone 3, the major components of the business solution are analyzed
    and designed. A baseline business case is also produced. The primary decision at
    Milestone 3 is to accept the logical system design and associated plans and to authorize
    funding for development, test, and (if chosen) pilot of that solution.
•   Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
    In the activities leading up to Milestone 4, the business solution is built. The Milestone 4
    activities are separated by two checkpoints. Activities leading up to Milestone 4A
    involve further requirements definition, production of the system’s physical design, and
    determination of the applicability of fixed-price contracting to complete system
    development and deployment. To achieve Milestone 4B, the system is integrated with
    other business systems and tested, piloted (usually), and prepared for deployment. The
    primary decision at Milestone 4B is to authorize the release for enterprise-wide
    deployment and commit the necessary resources.
•   Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
    activities leading up to Milestone 5, the business solution is fully deployed, including
    delivery of training on use and maintenance. The primary decision at Milestone 5 is to
    authorize the release of performance-based compensation based on actual, measured
    performance of the business system.




                                                                                        Page 40
                                          Annual Assessment of the
                                   Business Systems Modernization Program



                                                                                             Appendix VIII

    Modernization Project Cost and Schedule Estimates
                      and Revisions

Table 1 provides a comparison of the estimates in the Internal Revenue Service (IRS) Business
Systems Modernization (BSM) Expenditure Plans dated May 2004 and February 2005. The IRS
revised 6 cost estimates (5 increases and 1 decrease for a net increase of $28,300,000), and 4 cost
estimates remained unchanged. In addition, the IRS revised 8 schedule estimates (increases
ranging from 4 months to 14 months), and 2 schedule estimates remained unchanged. The IRS
funded these project cost increases through expenditure plan additions and funding previously
obtained through project risk adjustments.1


    Table 1: Treasury Inspector General for Tax Administration Comparison of BSM
          Cost and Schedule Estimates Between May 2004 and February 2005

                                                                                      Comparison of
                     Commitments in                Commitments in                     May 2004 and
                        May 2004                    February 2005                     February 2005
                     Expenditure Plan              Expenditure Plan                  Expenditure Plans
                                                                             Additional
Project                Cost                         Cost                        Cost
Name               (thousands)     Schedule    (thousands)      Schedule    (thousands)    Schedule Revision
Modernized              $17,612 03/31/2005           $33,912 03/31/2006         $16,300                12 mos.
e-File (MeF)                                                                  93 percent
Release 3,
Milestone 4
IRS Comment: IRS management advised the MeF cost and schedule increases were due to adding systems
requirements at the direction of the Department of the Treasury and Office of Management and Budget to allow for
the filing of State tax returns.

MeF                   $8,000    06/30/2005          $8,000    10/31/2005              $0                   4 mos.
Release 4,                                                                      0 percent
Milestone 3




1
 To allow for changes around cost estimates, the IRS has included a “risk adjustment” amount for each project or
activity area.

                                                                                                          Page 41
                                            Annual Assessment of the
                                     Business Systems Modernization Program



                                                                                        Comparison of
                       Commitments in               Commitments in                      May 2004 and
Project                   May 2004                   February 2005                      February 2005
Name                   Expenditure Plan             Expenditure Plan                  Expenditure Plans
e-Services             $32,500 04/30/2005           $32,500 08/31/2005                 $0               4 mos.
Milestone 5                                                                      0 percent
IRS Comment: IRS management advised the e-Services cost and schedule increases were due to adding significant
scope to the project such as a software upgrade and expanded requirements.
e-Services         $7,400 04/30/2005                 $12,100    08/31/2005         $4,700                   4 mos.
(level of                                                                       64 percent
effort)
IRS Comment: See above e-Services comment.
Collection              $7,250 01/31/2005           $13,250 03/31/2006              $6,000                  14 mos.
Contract                                                                        83 percent
Support
(CCS),
Milestones 3
and 4A
IRS Comment: IRS management advised the CCS cost and schedule increases were caused by the need to reduce
original estimates due to budget cuts and the Congress passing the Private Collection Agency legislation late in
Fiscal Year 2004, which delayed work on the project.
CCS                $8,250 05/01/2006                      $0    01/01/2007              $0                  8 mos.
Milestone 4B
IRS Comment: See above CCS comment.
Customer               $17,450    12/31/2004         $17,450    12/31/2005             $0                  12 mos.
Account Data                                                                     0 percent
Engine
(CADE)
Release 1,
Milestone 5


CADE 2006              $27,000    12/31/2005         $28,300    12/31/2005         $1,300                   0 mos.
Filing                                                                           5 percent
Season2




2
    The period from January through mid-April when most individual income tax returns are filed.

                                                                                                           Page 42
                                        Annual Assessment of the
                                 Business Systems Modernization Program



                                                                                   Comparison of
                    Commitments in               Commitments in                     May 2004 and
Project                May 2004                   February 2005                    February 2005
Name                Expenditure Plan             Expenditure Plan                 Expenditure Plans
CADE                $15,000 11/30/2005            $7,000 06/30/2006           -$8,000               7 mos.
Release 2,
Milestone 4A
IRS Comment: IRS management advised the decision was made to move $8 million to a level of effort contract.
CADE                                              $8,000    12/31/2005         $8,000                  0 mos.
Release 2,
(level of
effort)
IRS Comment: See above CADE comment.

Total Dollar       $140,462                     $160,512                      $28,300
Increase for                                                               20 percent
Ongoing
Projects

Source: May 2004 and February 2005 BSM Expenditure Plans.




                                                                                                      Page 43
                                          Annual Assessment of the
                                   Business Systems Modernization Program



                                                                                            Appendix IX

                   Schedule Delays and Cost Increases

Table 1 lists schedule delays and cost increases for various Internal Revenue Service (IRS)
Business Systems Modernization (BSM) projects included in the Government Accountability
Office’s November 2004 report.

                 Table 1: IRS BSM Project Cost/Schedule Variance Summary

                                                 Reported/Revised
                                                  Estimated Cost         Cost Variance     Schedule Variance
                    Project                       (in thousands)         (in thousands)       (in months)

Security and Technology Infrastructure                     $45,401               +$8,450                  +5
Release 1
Customer Communications 2001                                60,762               +14,562                 +9
Customer Relationship Management Exam                        9,245                  -721                 +3
Internet Refund/Fact of Filing                              26,432               +12,923                +14
Human Resources (HR) Connect Release 1                      10,200                 +200                    0
Enterprise Systems Management Release 1                     26,053               +12,818                +3.5

Modernized e-File Release 1                                 50,303               +21,057                +6.5
e-Services                                                 148,820              +102,271                +18
Customer Account Data Engine (CADE)                        182,774              +118,129                +30
Release 1
CADE Business Rules                                         38,102               +11,902                 +18
Integrated Financial System (IFS) Release 1                173,580               +73,710                +151
Custodial Accounting Project (CAP) Release 1               138,950              +$91,789                +332
(Canceled)

Source: Business Systems Modernization: IRS’s Fiscal Year 2004 Expenditure Plan (GAO-05-46, dated
November 2004).




1
    Project schedule under review. Work on the IFS has been suspended.
2
    Project schedule under review. Work on the CAP has been suspended.

                                                                                                     Page 44
                 Annual Assessment of the
          Business Systems Modernization Program



                                               Appendix X

Management’s Response to the Draft Report




                                                    Page 45
       Annual Assessment of the
Business Systems Modernization Program




                                         Page 46
       Annual Assessment of the
Business Systems Modernization Program




                                         Page 47
       Annual Assessment of the
Business Systems Modernization Program




                                         Page 48
       Annual Assessment of the
Business Systems Modernization Program




                                         Page 49
       Annual Assessment of the
Business Systems Modernization Program




                                         Page 50
